BECKER GALLAGHER
Briefs

and

DONNA J. WOLF, J.D.
JULIE A. KERSHNER, J.D.

Records

CERTIFICATE OF SERVICE
I, DonnaJ. Wolf, hereby certify that 1 unbound and
40 copies of the foregoing Petition for Writ of
Certiorari in John Teets v. Great-West Life & Annuity
Insurance Company, were sent via Next Day Service to
the U.S. Supreme Court, and 3 copies were sent Next
Day Service and e-mail to the following parties listed
below, this 19th day of September, 2019:
Michael L. O'Donnell
Edward C. Stewart
WHEELER TRIGG O'DONNELL LLP
370 Seventeenth Street
Suite 4500
Denver, Colorado 80202-547
(303) 244-1800
odonnell@wtotrial.com
stewart@wtotrial.com
Carter G. Phillips
SIDLEY AUSTIN LLP
1501 K Street, N.W.
Washington, D.C. 20005
(202) 736-8000
cphillips@sidley.com
Joel S. Feldman
Mark B. Blocker
SIDLEY AUSTIN LLP
One South Dearborn
Chicago, Illinois 60603
(312) 853-2030
jfeldman@sidley.com
mblocker@sidley.com
Counsel for Respondent

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite 102

1300 I Street, NW, Suite 400E

www.beckergallagher.com

Cincinnati, Ohio 45249

I BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

I Washington, DC 20005

Peter K. Stris
Dana Berkowitz
Rachana A. Pathak
Douglas D. Geyser
John Stokes
Stris and Maher LLP
777 S. Figueroa Street
Suite 3850
Los Angeles, CA 9001 7
(213) 995-6800
peter .stris@strismaher.com

Counsel for Petitioner

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on September 19, 2019.

Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive
Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

[seal]

